OIG Investigative Reports, Former Barton County Track Coach Lance Brauman Sentenced to 12 Months and A Day in Federal Prison
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
FOR IMMEDIATE RELEASE
October 2 , 2006
U.S. Department of Justice
United States Attorney
District of Kansas
Eric Melgren, U.S. Attorney
1200 Epic Center
Wichita, Kansas 67202
Contact: Jim Cross
Phone: (316) 269-6481
Fax: (316) 269-6420
FORMER BARTON COUNTY TRACK COACH LANCE BRAUMAN SENTENCED TO 12 MONTHS AND A DAY IN FEDERAL PRISON.NEIL ELLIOTT, RYAN CROSS AND LYLES LASHLEY SENTENCED MONDAY, TOO
WICHITA, KAN. – Former Barton County Community College track coach Lance Brauman was sentenced Monday to 12 months and a day in federal prison. A jury in July found Brauman guilty on one count of embezzlement from student assistance program funds, one count of theft from a program receiving federal funds and three counts of mail fraud.
Brauman, 36, was sentenced Monday during a hearing before U.S. District Judge Monti Belot in Wichita. In sentencing Brauman, Judge Belot said he was concerned about how the coach's unlawful activities affected his players.
"You were essentially teaching these kids that cheating was all right,"
Belot said to Brauman.
Belot also ordered Brauman to the pay U.S. Department of Education up to $18,986 in restitution. Brauman shares the obligation with one other defendant. After he completes his prison sentence, he will serve 3 years on supervised release.
Three other defendants charged in the same investigation also were sentenced Monday. Each of them was convicted of crimes that occurred while they were working in the athletic program at Barton.
Ryan Cross, 33, a former basketball coach, was sentenced to 4 months in federal prison, to be followed by 3 years of supervised release. He pleaded guilty to one count of wire fraud.
Neil Elliott, 42, a former athletic director, was sentenced to 4 months in federal prison, to be followed by 3 years of supervised release. He pleaded guilty to one count of mail fraud.
Lyles Lashley, 33, a former track coach, was sentenced to 3 years probation. He pleaded guilty to one count of theft from a program receiving federal funds. Lashley also ordered to pay the U.S. Department of Education up to $18,986 in restitution. He shares the obligation with Brauman.
DEFENDANTS ALREADY SENTENCED
In addition to the defendants sentenced Monday, four other Barton coaches have been charged and convicted.
Ryan Wolf, a former basketball coach, pleaded guilty to four counts, including one count of embezzlement from student assistance funds, two counts of theft of federal funds and one count of mail fraud. He was sentenced to 3 years probation and ordered to pay more than $120,000 in restitution.
Shane Hawkins, a former assistant basketball coach, pleaded guilty to one count of perjury. He was sentenced to 3 years probation and ordered to pay a $1,500 fine.
David Campbell, a former basketball coach, pleaded guilty to one count of embezzlement from a student assistance program. He was sentenced to 3 years probation and ordered to pay more than $7,700 in restitution.
Matt Skillman, a former basketball coach, pleaded guilty to one count of embezzlement of student assistance funds and one count of mail fraud. He was sentenced to 2 years probation and ordered to pay a fine of more than $26,000.
Melgren commended the U.S. Department of Education and the U.S. Postal Inspection Service, which investigated the cases.
Printable view
Share this page
Last Modified: 10/13/2006
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov